CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

VISA PLATINUM
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

5.90%

Introductory APR for a period of 12 billing cycles.

After that, Your APR will be 17.99% .
APR for Balance Transfers

5.90%

APR for Cash Advances

After that, Your APR will be 17.99% .
17.99%

Introductory APR for a period of 12 billing cycles.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
None
1.00% of each transaction in U.S. dollars
None
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See
Your Account Agreement for more details.
Promotional Period for Introductory APR: The Introductory APR for purchases and balance transfers will apply to
transactions posted to Your Account during the first 12 months following issuance of Your Card. Any existing balances on
Member One Federal Credit Union loan or credit card accounts are not eligible for the Introductory APR for balance
transfers.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Military Lending Act Disclosures: Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a
credit card account).
Please call us at (800) 666-8811 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04500386-MXC20-C-1-032917 (MXC201-E)

Other Fees & Disclosures:
Late Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less, if You are 1 or more days
late in making a payment. Your Account is subject to a Late Payment Fee, which will be charged to Your Account when
You do not make the required minimum payment by the statement Payment Due Date set forth on this Disclosure.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less. Your Account is
subject to a Returned Payment Fee, which will be charged to Your Account when a payment is returned for any reason.
Returned Convenience Check Fee: $25.00 or the amount of the returned convenience check, whichever is less. Your
Account is subject to a Returned Convenience Check Fee, which will be charged to Your Account when a convenience
check is returned for any reason.
Card Replacement Fee: $10.00. Your Account is subject to a Card Replacement Fee, which will be charged for each
replacement Card that is issued to You for any reason. Your Card should be received within 10 to 15 days.
Rush Fee: $20.00. Your Account is subject to a Rush Fee, except as limited by applicable law, which may be charged to
Your Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail
service, without paying a fee for delivery. Your Card should be received within 3 to 4 business days.
Emergency Card Replacement Fee: $250.00. Your Account is subject to an Emergency Card Replacement Fee, which
will be charged to Your Account for each emergency replacement Card that is issued to You. Your Card should arrive
within 24 hours by courier.
Document Copy Fee: $20.00. Your Account is subject to a Document Copy Fee, except as limited by applicable law,
which may be charged to Your Account for each copy of a sales draft or transactional documentation that You request
(except when the request is made in connection with a billing error made by the Credit Union).
Pay-by-Phone Fee: Up to $12.00. Your Account is subject to the Pay-by-Phone Fee, except as limited by applicable law,
which will be charged for each time You make an expedited payment by telephone or electronic means with a Customer
Service Representative. If the expedited payment is made through our card processor, the fee will be $5.00. If the
expedited payment is made through the Member One FCU contact center, the fee will be $12.00.
Statement Copy Fee: $5.00. Your Account is subject to a Statement Copy Fee, except as limited by applicable law and
when the request is made in connection with a billing error made by the Credit Union, which may be charged to Your
Account for each copy of a sales draft or statement that You request.
Stop Payment on Convenience Check Fee: $25.00. Your Account is subject to a Stop Payment on Convenience Check
Fee, which may be charged to Your Account for each Stop Payment placed on a Convenience Check associated with
Your Account.
Periodic Rates:
The Introductory Purchase APR is 5.90% which is a monthly periodic rate of 0.4917% .
The Purchase APR is 17.99% which is a monthly periodic rate of 1.4992%.
The Introductory Balance Transfer APR is 5.90% which is a monthly periodic rate of 0.4917% .
The Balance Transfer APR is 17.99% which is a monthly periodic rate of 1.49925%.
The Cash Advance APR is 17.99% which is a monthly periodic rate of 1.4992% .

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04500386-MXC20-C-1-032917 (MXC201-E)

